TaN |

soa,  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 L e & a I B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No, 19-930

CIC SERVICES, LLC,
Petitioner,
Vv.
INTERNAL REVENUE SERVICE, DEPARTMENT OF
TREASURY, UNITED STATES OF AMERICA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF TAX CLINIC AT
THE LEGAL SERVICES CENTER OF HARVARD LAW SCHOOL, AS AMICUS CURIAE IN
SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 5180 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska . Lu Quadra ,
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

39514
